                           Office of Inspector General
                          Corporation for National and
                                   Community Service




  AGREED-UPON PROCEDURES REVIEW
OF EDUCATION AWARD PROGRAM GRANTS
                TO
 WESTERN WASHINGTON UNIVERSITY –
    WASHINGTON CAMPUS COMPACT

              OIG REPORT 09-08




                      Prepared by:

                Regis & Associates, PC
               1400 Eye Street, Suite 425
                Washington, DC 20005




This report was issued to Corporation management on March 31, 2009. Under
the laws and regulations governing audit follow up, the Corporation is to make
final management decisions on the report’s findings and recommendations no
later than September 30, 2009, and complete its corrective actions by March 31,
2010. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL
                                         March 31, 2009


TO:           Lois Nembhard
              Acting Director, AmeriCorps*State and National

              Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      OIG Report 09-08, Agreed-Upon Procedures Review of Corporation for
              National and Community Service Education Award Program Grants to
              Western Washington University – Washington Campus Compact

Attached is the final report for the above-noted agreed-upon procedures review. We
contracted with the independent certified public accounting firm of Regis & Associates, PC
(Regis) to perform the procedures. The contract required Regis to conduct its review in
accordance with generally accepted government auditing standards.

Regis is responsible for the attached report, dated November 26, 2008, and the conclusions
expressed therein. We do not express opinions on the Schedule of Questioned Education
Awards and Administrative Fees, conclusions on the effectiveness of internal controls, or the
grantee’s compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by September 30, 2009. Notice of final action is due by March 31, 2010.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Ron
Huritz at (202) 606-9355.

Attachment

cc:   Jennifer Dorr, Executive Director, Washington Campus Compact
      William Anderson, Acting Chief Financial Officer, CNCS
      Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
        Management, CNCS
      Sherry Blue, Audit Resolution Coordinator, CNCS
      Peter Regis, President, Regis & Associates, PC




                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                        202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps    AmeriCorps   Learn and Serve America
                       OFFICE OF INSPECTOR GENERAL
              CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

             AGREED-UPON PROCEDURES REVIEW OF
      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
            EDUCATION AWARD PROGRAM GRANTS TO
WESTERN WASHINGTON UNIVERSITY - WASHINGTON CAMPUS COMPACT


                                                      Table of Contents

                                                                                                                                      Page

Executive Summary ...........................................................................................................          1

       Agreed-Upon-Procedures Scope ...............................................................................                    2

       Background ...............................................................................................................      2


Independent Accountants’ Report on Applying Agreed-Upon Procedures........................ 3

       Results........................................................................................................................ 4

             Exhibit A: ...........................................................................................................    6

                  Schedule of Questioned Education Awards and Administrative Fees ..........                                           6

             Exhibit B: Compliance Testing Results ............................................................. 7

Appendix A –Western Washington University – Washington Campus Compact’s Response
             to the Draft Report

Appendix B – Corporation for National and Community Service’s Response
             to the Draft Report




                                                                    i
                                 EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Regis & Associates, PC to perform an agreed-upon
procedures (AUP) review of Western Washington University – Washington Campus
Compact (WWU), solely to assist the OIG in compliance testing of member files for
AmeriCorps Education Award Program (EAP) grants nos. 04EDHWA001 and
07EDHWA001 to WWU for Program Years (PYs) 2006-2007 and 2007-2008.

As a result of applying these procedures, we have questioned amounts totaling $19,716
consisting of education awards of $6,976, and administrative fees of $12,740. The
questioned administrative fees include $1,200 for ineligible members and $11,540 for draw
down of excess grant funds. The detailed results of our AUP and questioned education
awards and administrative fees are presented in the Independent Accountant’s Report on
Applying Agreed-Upon Procedures (see Page 3).

A questioned amount is an alleged violation of a provision of law, regulation, contract, grant,
cooperative agreement, or other agreement or document governing the expenditure of funds;
or a finding that, at the time of testing, such amounts were not supported by adequate
documentation.

Questioned Amounts. As a result of testing a sample of transactions, we questioned the
following:

                                                                   Questioned Amounts


                                                             Education            Administrative
      Grant Number                 Grant Period               Awards                  Fees

      04EDHWA001              08/01/2006 - 07/31/2007          $ 6,976               $   12,320
      07EDHWA001              08/01/2007 - 07/31/2008              -                 $      420
          Total                                                $ 6,976               $   12,740

Compliance Testing Results. The results of our agreed-upon procedures showed instances
of non-compliance with grant provisions, regulations, or Office of Management and Budget
(OMB) Circulars. Those instances of non-compliance are shown in Exhibit B in the
Compliance Testing Results section of the Independent Accountants’ Report on Applying
Agreed-Upon Procedures.

Exit Conference and Responses to Draft Report. The contents of this report were
discussed with WWU and the Corporation at an exit conference held at the Corporation’s
Headquarters in Washington DC, on January 9, 2009. We provided a draft of this report to
WWU and to the Corporation on February 6, 2009 for comment. WWU’s response to the
findings and recommendations in the draft report are included as Appendix A and



                                               1
summarized in each finding. The Corporation did not respond to the individual findings and
recommendations. Its response is included as Appendix B.


Agreed-Upon Procedures Scope

This AUP review had the objectives of determining whether members enrolled in the
program were eligible to serve, performed their service in accordance with grant terms and
conditions and, if certified for an education award, performed the minimum service hours
required. The grant award periods are August 1, 2004, to July 31, 2007, for Grant No.
04EDHWA001; and August 1, 2007, to July 31, 2010, for Grant No. 07EDHWA001. The
period of our testing was August 1, 2006, to September 30, 2008. We tested 14 member files
as part of the engagement planning phase and 414 member files during the testing phase from
a total population of 4,117 member files. We performed our procedures during the period
September 12 through November 26, 2008.

The OIG’s AUP program, dated September 2008, provided guidelines for reviewing WWU’s
operations and testing its compliance with provisions of the EAP grant. We used sampling
software to randomly select the sample for our testing; however, we did not project the
results of the sample to the total population of member files. These procedures are described
in more detail in the Independent Accountants’ Report on Applying Agreed-Upon
Procedures.

Background

The Corporation supports national and community service programs that provide full-time
and part-time opportunities for Americans to engage in service that fosters civic
responsibility, strengthens communities, and provides educational opportunities for those
who make a commitment to service. The AmeriCorps program is one of the Corporation’s
three major service initiatives. Approximately three-quarters of all AmeriCorps grant
funding goes to governor-appointed State service commissions, which award competitive
grants to nonprofit groups that recruit AmeriCorps members. The Corporation distributes
most of the balance of its funding directly to multi-State and national organizations, such as
WWU, through a competitive grant process.

WWU administers a part-time AmeriCorps program called Students in Service (SIS), which
encourages and supports college students to enroll as part-time AmeriCorps members, who
provide human services in their communities. The purposes of the SIS program are to meet
critical community needs by engaging higher education students in service as part-time
AmeriCorps members, and fostering within them an ethic of civic responsibility. Student
members serve in partnership with schools and community-based organizations in the areas
of education, environment, public safety, and community development.

The SIS program is offered in the states of California, Hawaii, Idaho, Montana, Oregon and
Washington. SIS members gain valuable civic and workforce skills, and upon completion of
their term of service, members earn an education award.

                                               2
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS


                      INDEPENDENT ACCOUNTANTS’ REPORT ON
                        APPLYING AGREED-UPON PROCEDURES

Regis & Associates, PC performed the procedures that were agreed to by the OIG, solely to
assist it in compliance testing of member files for Education Award Program (EAP) Grant
Nos. 04EDHWA001 and 07EDHWA001 to Western Washington University – Washington
Campus Compact (WWU) for program years 2006-2007 and 2007-2008. This AUP
engagement was performed in accordance with standards established by the American
Institute of Certified Public Accountants and generally accepted government auditing
standards. The sufficiency of these procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures
described below, either for the purpose for which this report has been requested or any other
purpose.

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on WWU management’s assertions. Accordingly, we do not
express such an opinion. Had we performed other procedures, other matters might have
come to our attention that would have been reported to you.

We performed the following procedures to verify that:

                Hours recorded on members’ timesheets supported their eligibility to earn
                 education awards;

                Timesheets, forms, and contracts were in members’ files and were signed,
                 dated, and did not contain discrepancies;

                Service hours reported in the Corporation’s Web-Based Reporting System
                 (WBRS) agreed with hours recorded on timesheets;

                Members were U.S. citizens, nationals, or lawful permanent residents and had
                 obtained high-school diplomas or equivalency certificates;

                Criminal background checks were conducted for members who had
                 substantial recurring contact with children or other vulnerable individuals;

                Contracts were signed by members and included required AmeriCorps
                 stipulations;

                End-of-term member performance evaluations were performed and
                 documented;



     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284

                                                3
             Members who received a prorated education award were released for
              compelling personal circumstances;

             Enrollment, exit, and change-of status-forms were completed and approved in
              WBRS within 30 days of members starting and ending service or changing
              their status;

             Members attended pre-service orientation sessions;

             WWU certified to the National Service Trust that members were eligible to
              receive education awards;

             No more than 20 percent of the aggregate of all AmeriCorps members’ service
              hours was spent in training and educational activities; and

             Members did not exceed the fundraising limitation of 10 percent.

Results

As a result of applying the agreed-upon procedures, we questioned education awards of
$6,976 for two members with insufficient hours and two missing member files, and
administrative fees of $12,740. The questioned administrative fees included $1,200 for
seven ineligible members, and $11,540 in excess drawdowns of grant funds. The questioned
amounts are summarized in Exhibit A, Schedule of Questioned Education Awards and
Administrative Fees. The compliance testing results are summarized in Exhibit B,
Compliance Testing Results. Issues identified include the following:

   1. Some timesheets did not include documentation to support eligibility to earn
      education awards and had date and signature discrepancies.

   2. Documentation in member files did not support eligibility.

   3. Two member files and related documentation were not retained by WWU.

   4. WWU drew down excess grant funds for PY 2006-2007.

   5. WWU did not have documentation to support that criminal background checks were
      conducted as part of its member screening process.

   6. Members recorded service hours before contracts were signed.

   7. WWU did not have documentation that end-of-term member performance evaluations
      were performed.




                                            4
8. WWU did not complete some member enrollment, exit, and change-of-status forms
   and enter them into WBRS in a timely manner.

9. WWU did not retain documentation of member attendance at pre-service orientation
   sessions.




                                        5
                                                                                                       EXHIBIT A

 WESTERN WASHINGTON UNIVERSITY – WASHINGTON CAMPUS COMPACT
                 EDUCATION AWARD PROGRAM
          SCHEDULE OF QUESTIONED EDUCATION AWARDS
                  AND ADMINISTRATIVE FEES

   Reasons for Questioned            Enroll-     Number                                                    Total
         Amounts                      ment         of             Education            Admin             Questioned
                                      Type       Members           Award                Fees              Amounts
No Evidence of US Citizenship

    Program Year 2006 – 2007          MT                 1                  -      $       80             $         80

    Program Year 2006 – 2007           QT                1                  -      $      100             $        100

    Program Year 2007- 2008           MT                 1                  -      $       120                $    120

No High School Diploma                                                      -

    Program Year 2006 – 2007           HT                1                  -      $       200            $        200

No Background Check
    Program Year 2007-2008           2YHT                1                  -      $       300                $    300
Missing Member Files

    Program Year 2006 – 2007           HT                2        $     4 ,726     $      400             $       5,126

Hours in WBRS not Supported by
Timesheets
   Program Year 2006 – 2007            QT                1        $     1,250               -             $       1,250

    Program Year 2006 – 2007          MT                 1        $     1,000               -             $       1,000

Excess draw downs
    Program Year 2006 – 2007                                                       $    11,540            $ 11,540


   Total Questioned Education Awards and
            Administrative Fees                                   $      6,976     $    12,740            $ 19,716

(QT – Quarter Time; MT – Minimum Time; HT – Half Time; 2YHT – Two-year Half-Time)

EXCESS DRAWDOWNS

                                       Administrative Fee
 Program Year       Number of FTEs       Entitlement             Drawdown Amount                Excess Drawdown

   2006-2007             596                $ 227, 200                $ 238, 740                   $ 11,540




                                                             6
                                                                                EXHIBIT B
                       WESTERN WASHINGTON UNIVERSITY
                        WASHINGTON CAMPUS COMPACT

                          EDUCATION AWARD PROGRAM

                          COMPLIANCE TESTING RESULTS

Finding 1. Some timesheets did not include documentation to support eligibility,
           service hours were not accurately recorded in WBRS, and timesheets had
           date and signature discrepancies.

Service hours recorded in WBRS for 123 of the 428 members tested did not agree with hours
reported on the members’ timesheets. These differences did not affect the members’
eligibility to earn education awards for 121 of the 123 members, as those members’ service
hours exceeded Corporation requirements. However, the differences did affect two
members’ eligibility to earn education awards. We questioned the education awards for the
two members in the amount of $2,250. The table below indicates the status of hours for the
two members whose timesheets did not support eligibility:

                                              Hours in       Hours on
Program Year       Enrollment Type/Status      WBRS         Timesheets         Difference

  2006-2007       QT/Complete-Full Award         463.50         0.00            (463.50)

  2006-2007       MT/Complete-Full Award         303.50       290.00             (13.50)

In addition, we determined that timesheets had the following discrepancies:

              Lack of member and/or supervisor signature.
              Untimely dates, or were all signed on the same date.
              Changes made to timesheets were not initialed as corrected.

WWU attributed the differences between the hours listed on the timesheets and the hours
recorded in WBRS to its monthly time reporting system. Although WWU requires that
timesheets be completed and submitted within 30 days after the end of the month of service,
timesheets are sometimes submitted late, and for several months at a time. Program officials
did not always thoroughly review the timesheets and other forms used to ascertain
completeness of hours recorded by the members, and also did not ensure that site supervisors
signed and dated the timesheets.

WWU did not comply with its procedures to verify members’ activities or timesheet
accuracy. Therefore, the potential exists that members may perform prohibited activities or
members may not perform and accumulate enough service hours to earn education awards.



                                             7
Criteria

The 2006/2007 AmeriCorps Education Award Grant Provision Section IV.F.1. Terms of
Service, Program Requirements, states that to be eligible for an education award:

      Each Program must, at the start of the term of service, establish the guidelines and
      definitions for the successful completion of the program year, ensuring that these
      program requirements meet the Corporation’s service hour requirements as
      defined below:

             a. Full-Time Members. Members must serve at least 1700 hours during a
             period of not less than nine months and not more than one year.
             b. Half-Time Members. Half-time members must serve at least 900
             hours during a period of one or two years as indicated in the approved
             budget.
             c. Reduced Half-Time Members. Reduced half-time members must
             serve at least 675 hours over a time not to exceed one year.
             d. Quarter-Time Members. Quarter-time members must serve at least
             450 hours over a time not to exceed one year.
             e. Minimum Time Members. Minimum time members must serve at
             least 300 hours over a time not to exceed one year.

Recommendations

We recommend that the Corporation:

1a.      Disallow and recover $2,250 in education awards for members determined to be
         ineligible.

1b.      Require WWU to comply with its procedures to ensure the review and approval of
         hours recorded on timesheets, ensure that timesheets are signed by the member and
         supervisor, that changes to timesheets are initialed by the member and supervisor, and
         that documentation exists to support the review.


WWU’s Response

WWU indicated that, subsequent to our review, it redesigned the members’ time log to
include directions for completing the log. It has also instructed its campus partners not to
accept time logs that are not signed and dated by the member and the site supervisor within
30 days of their due date.

WWU encourages its members to use time logs in various electronic formats, including
writeable PDF and Excel spreadsheet formats.




                                                 8
Auditor’s Comments

The actions proposed by WWU appear to be adequate in addressing the finding. However,
the Corporation should follow up to ensure that the planned actions are implemented.


Finding 2. Documentation in member files did not support eligibility.

Files for three members did not include documentation to support evidence of citizenship or
lawful permanent residency. These three members exited the program without receiving an
education award. We noted that the file for one of the three members contained a copy of a
birth certificate from a foreign nation, and there was no other documentation provided to
support U.S. residency status. Additionally, the self-certification statement for a high school
diploma or its equivalent was not signed by one member. This member also exited without
receiving an education award.

We questioned $300 in administrative fees paid to WWU for the three members with
inadequate citizenship documentation, and $200 for the one member with inadequate
documentation for the high school diploma requirement.

The program staff did not obtain documentation to ensure the members met the citizenship or
residency eligibility requirements. Additionally, the program staff did not ensure that a copy
of one high school diploma was provided, or that the self-certification statement for a high
school diploma or its equivalent was signed by the member.

Programs that do not maintain documentation to ensure that applicants meet the citizenship
or residency and high school diploma eligibility requirements are at risk of enrolling
members who may not be eligible to participate in AmeriCorps programs.

Criteria

The 2006/2007 AmeriCorps Education Award Grant Provisions Section IV.M.2. Member
Records and Confidentiality, states in part,

   Verification. To verify U.S. citizenship, U.S. national status or, U.S. lawful
   permanent resident alien status, the grantee must obtain and maintain
   documentation as required by 45 C.F.R. §2522.200(b) and (c). The Corporation
   does not require programs to make and retain copies of the actual documents used
   to confirm age or citizenship eligibility requirements, such as a driver’s license, or
   birth certificate, as long as the grantee has a consistent practice of identifying the
   documents that were reviewed and maintaining a record of the review.

According to 45 C.F.R. § 2522.200, What are the eligibility requirements for an AmeriCorps
participant? Every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States.



                                               9
Recommendations

We recommend that the Corporation:

2a.    Recover $500 in administrative fees for members determined to be ineligible.

2b.    Require WWU to adhere to the grant provisions to ensure that adequate
       documentation is maintained to verify member eligibility.

WWU’s Response

The grantee’s policy is that all members must provide satisfactory identification during the
enrollment process. However, it acknowledged that identification for the questioned
members was either missing or reflected members’ ineligibility for the program.

WWU instructed its campus partners to be more diligent in ensuring that members properly
self-certify that they have earned high school diplomas, and that identification that satisfies
program requirements be obtained.

Auditor’s Comments

The actions proposed by WWU appear to be adequate in addressing the findings. However,
the Corporation should follow up to ensure that the planned actions are implemented.


Finding 3. Two member files and related documentation were not retained by WWU.

Our review of 428 member files found that WWU did not retain any records for two half-
time members. We were unable to review documentation to determine their eligibility to
participate in the program or timesheets to support their earned education awards. The
grantee’s inability to demonstrate member eligibility, or to establish that required service
hours were completed, resulted in two questioned education awards and related
administrative fees.

We questioned $5,126, which consists of $4,726 in education awards, and $400 in
administrative fees paid to WWU for the two members who served in PY 2006-2007.

Programs that do not maintain documentation to ensure that applicants and members meet
eligibility requirements, and that members accumulate the requisite service hours, are at risk
of enrolling members who may not be eligible to participate in AmeriCorps programs or who
may not have served enough hours to earn an education award.


Criteria

The 2006/2007 AmeriCorps Education Award Grant Provision Section V.D., Retention of
Records, requires grantees to retain all program records for three years from the date of the

                                               10
submission of the applicable final closeout documents. If an audit is started prior to the
expiration of the three-year period, the records must be retained until the audit findings
involving the records have been resolved and final action has been taken.

Recommendations

We recommend that the Corporation:

3a. Disallow and recover from WWU questioned education awards and administrative fees
    totaling $5,126 for the two members referenced in the finding.

3b. Ensure that WWU maintains the required member information in its files for the
    retention period specified by the grant provisions.


WWU’s Response

WWU acknowledged that it was unable to locate the two missing PY 2006-2007 files.
During that year, the grantee’s program was transitioning from a centralized program to a
decentralized program, and staff changes at the campus location where the two members
were serving may have contributed to the inability to locate the files.

WWU has implemented new policies and procedures that require the campus partners to
account for all their member files at the end of each grant year. In addition, internal file
audits will be conducted during WWU’s yearly site visits to the campuses.

Auditor’s Comments

The actions proposed by WWU, if implemented, should be adequate to address the finding.


Finding 4. WWU drew down excess grant funds for PY 2006-2007.

Our analysis of grantee drawdowns indicated that $11,540 was overdrawn for Grant No.
04EDHWA001 in PY 2006-2007. This amount is included in the schedule of questioned
costs (Exhibit A).

The Notice of Grant Award amendment for PY 2006-2007 allowed the grantee to draw down
a maximum of $227,200. However, the grantee drew down approximately $238,740.

WWU makes draw downs against the education award program grants based on actual
administrative costs incurred and amounts sub-awarded to other Campus Compacts. The
grantee also tracks its grant activity on a grant cycle basis. The grant in question covered the
period August 1, 2004, to July 31, 2007. The funds awarded over the three-year cycle
exceeded the amount drawn over the same period because the annual allotment of member
service year (MSY) slots was not filled in some years. The grantee believed that, since the


                                               11
number of total authorized slots was not exceeded, refilled slots would be allowed by the
Corporation.

For PY 2006-2007, the grant allocated 568 MSY slots, but the grantee drew down the
equivalent of 596 occupied slots, which included slot refills. As a result, the grantee drew
down $11,540 in grant funds to which it was not entitled.

Criteria
The 2006/2007 AmeriCorps Education Award Program Grant Provisions Section V.K,
General Provisions, Responsibilities Under Grant Administration, Fixed Amount Award
states:
   Education Award Programs are for fixed amounts and are not subject to the
   Federal Cost Principles. The fixed amount is based on the approved number of
   members and is funded at the amount per full-time equivalent member specified
   in the award.
   The award is dependent upon the grantee’s performance under the terms and
   conditions of the award. These include properly enrolling the number of
   members as specified in the award to carry out the activities and to achieve the
   specific project objectives as approved by the Corporation. Failure to enroll the
   number of members approved in the grant itself may result in the reduction of
   the amount of the grant.

Recommendations

We recommend that the Corporation:

4a. Recover $11,540 in excess grant funds drawn down for PY 2006-2007;

4b. Require WWU to adhere to the grant provisions to ensure that grant funds are not
    overdrawn.


WWU’s Response

WWU agreed with the finding and will work with the Corporation’s Resolution Coordinator
to address this matter.

Auditor’s Comments

The grantee’s response is adequate to address the finding.

Finding 5. WWU did not have documentation to support that criminal background
           checks were conducted as part of its member screening process.


                                              12
WWU could not provide documentation to support that criminal background checks were
completed as part of its screening process for 61 members. Program files for 59 members in
PY 2006-2007, and two members in PY 2007-2008, did not have evidence that background
checks had been conducted.

Effective November 23, 2007, Corporation requirements were changed to state that members
for whom criminal background checks had not been conducted were deemed ineligible to
serve in the EAP Program. Therefore, we questioned administrative fees in the amount of
$300 for one member in PY 2007- 2008 who was enrolled in July 2008. Program staff did
not ensure that the required background checks were conducted for these members.

Without documentation of required criminal background checks, members who should not
have been working with children or other vulnerable persons may have had substantial direct
contact with those groups, resulting in a potential liability for WWU and the Corporation and
posing a potential danger to the persons being served.

Criteria

The 2006/2007 AmeriCorps Education Award Program Grant Provisions Section IV.C.
Member Enrollment, states:

      Criminal Background Checks. Programs with members (18 and over) or grant-
      funded employees who, on a recurring basis, have access to children (usually
      defined under state or local law as un-emancipated minors under the age of 18) or
      to individuals considered vulnerable by the program (i.e. the elderly or individuals
      who are either physically or mentally disabled), shall, to the extent permitted by
      state and local law, conduct criminal background checks on these members or
      employees as part of the overall screening process.

      The grantee must ensure, to the extent permitted by state or local law, that it
      maintains background check documentation for members and employees covered
      by this provision in the member or employee’s file or other appropriate file. The
      documentation must demonstrate that, in selecting or placing an individual, the
      grantee or the grantee’s designee (such as a site sponsor) reviewed and considered
      the background check’s results.

Recommendations

We recommend that the Corporation:

5a.    Recover administrative fees of $300 for the member enrolled after November 23, 2007,
       whose criminal background check was not conducted.




                                                13
5b. Require WWU to strengthen its controls and procedures for obtaining and retaining
    documentation supporting criminal background checks as permitted by State law, and
    demonstrate that the results were considered as part of its member screening process.

WWU’s Response

The Student-in-Service program significantly improved its performance in conducting and
documenting criminal background checks. WWU acknowledged that background checks for
the two PY 2007-2008 members noted in this report were performed more than a year prior
to their enrollment. WWU plans to have the background checks re-done for these members.
The grantee plans to be more diligent in conducting and documenting timely background
checks in compliance with the Corporation’s policies.

Auditor’s Comments

WWU’s comments are responsive to the intent of the finding.

Finding 6. Members recorded service hours before contracts were signed.

We found that 228 members recorded service hours before they had signed member
contracts. We did not question the members’ education awards because they performed
sufficient hours after the contracts were signed to make them eligible for awards. WWU’s
management stated that its understanding of the provisions regarding the contracts was
unclear.

Individuals who record service time before contracts are in place may receive benefits,
including education and accrued interest awards, to which they are not entitled.

Criteria

The 2006/2007 AmeriCorps Education Award Grant Provisions Section IV.C. AmeriCorps
Special Provisions, Member Enrollment, states in part:

   1. Member Enrollment Procedures.

       a. An individual is enrolled as an AmeriCorps member when all of the
          following have occurred:
          i. He or she has signed a member contract;
          ii. The program has verified the individual's eligibility to serve;
          iii. The individual has begun a term of service; and
          iv. The program has approved the member enrollment form in WBRS.

       b. Prior to enrolling a member in AmeriCorps, programs make
          commitments to individuals to serve. A commitment is defined as



                                             14
           signing a member contract with an individual or otherwise entering
           into a legally enforceable commitment as determined by state law.

Recommendation

   6. We recommend that the Corporation require WWU to ensure that members sign
      contracts before performing and recording service hours.

WWU’s Response

WWU agreed with the finding and stated its understanding that the member contract could be
signed within 30 days of the official enrollment date. The grantee has revised its enrollment
checklist and notified its campus partners that a member’s term of service does not start until
all enrollment paperwork is signed and satisfactory identification is provided.

Auditor’s Comments

The actions proposed and implemented by WWU are adequate in addressing the finding.
However, the Corporation should follow up to ensure that planned actions are implemented.


Finding 7.     WWU did not have documentation that end-of-term member
               performance evaluations were performed.

We found that end-of-term evaluation forms were not completed for 94 members (80
members in PY 2006-2007; and 14 members in PY 2007-2008).

WWU’s management stated that its understanding of the provisions relating to end-of-term
evaluations was unclear.

Without final evaluations, WWU or its program sites may not be able to determine whether a
member satisfactorily completed his or her term of service, is eligible for an education award,
or is eligible to serve a second term. Properly completed evaluations are necessary to ensure
that members are eligible to serve additional terms and that grant objectives have been met.

Criteria

Title 45 C.F.R. § 2522.220(d) Participant performance review, states that:

   For the purposes of determining a participant's eligibility for a second or
   additional term of service and/or for an AmeriCorps education award, each
   AmeriCorps program will evaluate the performance of a participant mid-term and
   upon completion of a participant's term of service. The end-of-term performance
   evaluation will assess the following: (1) Whether the participant has completed
   the required number of hours described in paragraph (a) of this section.

The Students in Service website, Expectations of a Site Supervisor, states:
                                              15
     “To sign the member's site agreement, monthly time logs, complete mid-term evaluation
     (for 900 hr. term members only) and end-of term evaluation, and to monitor member's
     compliance regarding prohibited activities.”

Recommendation

7.       We recommend that the Corporation ensure that WWU adheres to the grant
         provisions and its requirements regarding end-of-term evaluations.

WWU’s Response

WWU agreed with the finding but is unclear about the end-of-term member evaluation
requirement. The grantee requires its site supervisors to complete an online supervisory end-
of-term evaluation for all members.

WWU has simplified the end-of-term supervisory evaluation and created a one-page hard
copy evaluation form that campus partners can review to determine whether the member’s
service was satisfactory.

Auditor’s Comments

The grantee’s actions are responsive to the finding.


Finding 8. WWU did not complete some member enrollment, exit, and change-of-
           status forms and enter them into WBRS in a timely manner.

We found that WWU did not have adequate documentation to demonstrate whether
enrollment and exit forms were properly completed and submitted in a timely manner for 97
members. These 97 members had 105 forms that were entered late. Specifically, we noted
that:

        40 enrollment forms were not entered into WBRS within 30 days of member start
         dates.

        54 exit forms were not entered in WBRS within 30 days of members completing their
         service.

        5 enrollment and exit forms lacked member and/or supervisor signatures or were
         undated.

        3 change-of-status forms were not entered into WBRS within 30 days of the status
         change.



                                              16
         Files for three members were missing either the entire enrollment and exit forms or
          pages of the forms, and did not contain the page requiring program directors to certify
          to the National Service Trust that members were eligible for education awards.

According to WWU management, the majority of these instances were clerical oversights.

Without accurate and timely submission of these forms, the Corporation cannot maintain
timely and complete member records, and WWU may not be able to properly review, track,
and monitor program site activities and accomplishments.

Criteria

The 2006/2007 AmeriCorps Education Award Grant Provisions Section IV.O.3. AmeriCorps
Special Provisions, Reporting Requirements, states in part:

          AmeriCorps Member-Related Forms. The grantee is required to submit the
         following documents to the National Service Trust at the Corporation on
         forms provided by the Corporation. Grantees and sub-grantees may use
         WBRS to submit these forms electronically. Programs using WBRS must
         also maintain hard copies of the forms.

            a. Enrollment Forms. Enrollment forms must be submitted no later than
            30 days after a member is enrolled.

            b. Change of Status Forms. Member Change of Status Forms must be
            submitted no later than 30 days after a member’s status is changed. By
            forwarding Member Change of Status Forms to the Corporation, State
            Commissions and Parent Organizations signal their approval of the
            change.

            c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
            Service Forms must be submitted no later than 30 days after a member
            exits the program or finishes his/her term of service.

Recommendation

8.        We recommend that the Corporation require WWU to enhance its controls and
          procedures to ensure that enrollment, exit, and change-of-status actions are reported
          to the Corporation in a timely manner, and that related forms are maintained in
          member files as required.

WWU’s Response

WWU stated that over the past two years, the program has made significant strides in
improving its performance for entering information in WBRS on enrollments, exits, and



                                                17
change of status actions. WWU noted that for program years 2007-2008 and 2008-2009, the
average time elapsing between enrollment and approval was eight days.

WWU trained its campus partners on the policies, and will continue to strengthen its policies,
procedures, and controls with regard to the 30-day requirement. It will also be more diligent
in notifying the Corporation of these actions on a timely basis.

Auditor’s Comments

The actions proposed by WWU are responsive to the finding, However, the Corporation
should follow up to ensure that planned actions are implemented.


Finding 9. WWU did not retain documentation of member attendance at pre-service
             orientation sessions.

WWU did not retain sign-in sheets or other documentation to support member attendance at
AmeriCorps orientation sessions for 292 members.

According to WWU officials, the program sites do not always retain the sign-in sheets after
the orientation sessions are conducted, but noted that all members are required to attend the
orientation sessions.

Retention of orientation sign-in sheets is necessary to ensure that members understand all
program requirements. A member who does not participate in the required orientation may
not be aware of requirements to which he/she must adhere to successfully complete the EAP
program.

Criteria

The 2006/2007 AmeriCorps Education Award Grant Provisions Section IV.E.3. Training,
Supervision, and Support, states that:

        The grantee must conduct an orientation for members and comply with any pre-
       service orientation or training required by the Corporation. This orientation
       should be designed to enhance member security and sensitivity to the
       community. Orientation should cover member rights and responsibilities,
       including the Program's code of conduct, prohibited activities (including those
       specified in the regulations), requirements under the Drug-Free Workplace Act
       (41 U.S.C. 701 et seq.), suspension and termination from service, grievance
       procedures, sexual harassment, other non-discrimination issues, and other topics
       as necessary.




                                              18
Recommendation

9.     We recommend that the Corporation require WWU to adhere to the grant provisions
       and ensure that it retains all documentation to support member attendance at pre-
       service orientation sessions.

WWU’s Response

WWU stated its policy that all potential members are required to review an online pre-service
orientation and complete a questionnaire. After completing the orientation, the potential
member is required to schedule an in-person orientation before being enrolled. WWU was
unclear that there was a requirement to maintain attendance records for the orientation
sessions.

WWU has now trained its campus partners to keep attendance records on file, including the
in-person orientation sign-in-sheets. Reminders are also posted at the start of the video and
PowerPoint for orientation sessions.

Auditor’s Comments

The grantee’s actions are adequate to address this finding.


This report is intended for the information and use of the Office of Inspector General,
Corporation management, WWU, and the U.S. Congress. However, this report is a matter of
public record and its distribution is not limited.




Regis & Associates, PC
November 26, 2008




                                              19
          APPENDIX A

WESTERN WASHINGTON UNIVERSITY –
 WASHINGTON CAMPUS COMPACT

 RESPONSE TO THE DRAFT REPORT
                                                                              ~\11Y
                                                                              ~~~
                                                                             Washington
                                                                           Campus Compact


                                                  February 24,2009


MEMBERS
Presidents or Chancellors of:                     Stuart G. Axenfeld
Antioch University Seattlc*                       Assistant Inspector General for Audit
Cascadia Community College                        Office of Inspector General
Central Washington University                     Corporation for National and Community Service
Clark College                                     1201 New York Avenue, NW Ste.830
Eastern Washington University                     Washington, DC 20525
Edmonds Community College
Everett Community College                         Dear Mr. Axenfeld,
Gonzaga University
Grays Harbor College                              Thank you for the opportunity to comment on the draft report of the recent audit of Western
Heritage University                               Washington University-Washington Campus Compact's Students in Service Program. We
Lake Washington Technical College                 found the audit to be very helpful in bringing to light program areas that need improvement.
Northwest Indian College*                         There were significantly fewer findings during the 2007-2008 grant year than there were in
Olympic College                                   the 2006-2007 grant year because procedures were changed before the 2007-2008 grant year
Saint Martin's University                         to be more compliant with CNCS policies. In areas that were pointed out from the findings
Seattle Central Community College                 that needed further strengthening, we have already taken steps to implement new policies
Seattle Pacific University                        and procedures that should significantly reduce or eliminate future findings in the areas
Seattle University*                               detailed in the draft report.
Shoreline Community College*
Skagit Valley College                             Response to the findings of the OIG auditors:
South Puget Sound Community College
Spokane Community College                         Finding 1 - Some timesbeets did not include documentation to support eligibility, and
Spokane Falls Community College*                  hours were not accurately recorded in WBRS and had date and siguature
Tacoma Community College                          discrepancies.
The Evergreen State College
University of Washington                          The Students in Service program has recently redesigned the member's time log to include
University of Washington, Bothell                 directions for completing the time log actually on the time log. We have also instructed all of
University of Washington, Tacoma                  our campus partners to be more diligent in checking time logs before they are approved and
Walla Walla Community College                     to not to accept any time logs that are not signed and dated by the member and site
Washington State University*                      supervisor on or before 30 days ofthe end of the completed time log month.
Washington State University, Spokane
Washington State University, Vancouver            We are highly encouraging members to complete their time logs using the writable pdftime
Western Washington University*                    log format or Excel time log format to reduce the number of cross-outs on time logs as well
Whatcom Community College                         as to simplify totaling the time log hours using the Excel spreadsheets provided. Going
Whitworth University*                             forward, we believe the new procedures will significantly reduce or eliminate future findings
* indicates presidentlchancellor is member of     concerning time logs.
  Washington Campus Compact
  Executive Board
                                                  Finding 2. Documentation in member files did not support eligibility.
EXECUTIVE STAFF
Jennifer H. Dorr, Executive Director              It is the Students in Service program policy that all members include a satisfactory
                                                  identification with their enrollment paperwork that determines they are a United States
                                                  citizen, United States national, or permanent legal resident before they are enrolled in the


          516 High Street, MS 5291         0    Bellingham, Washington 98225-5596. (tel) 360-650-7312 0 (fax) 360-650-6895 • www.wacampllscompact.OIg
                                                                Hosted by Western Washington University
Stuart G. Axenfeld
February 24, 2009
Page 2



program. Unfortunately, 3 of the 428 members audited were either missing a satisfactory
identification or were an international student. We have instructed all of our campus partners to
be more diligent in ensuring the member has a satisfactory identification before the member is
enrolled into WBRS. And, we have clarified with our campus partners that no international
students on student visas can take part in the Students in Service program.

As for the one member who did not complete the last question on the Enrollment Part 2 that self-
certifies having a high school diploma, we have notified all campus partners to make sure they
are more diligent in checking that they are enrolling members who have self-certified that they
have at least a high school diploma.

Finding 3. Two member files and related documentation were not retained by WWU.

Unfortunately, at this time, we are missing the two files in question; however, we are confident
the two members did enroll and complete their terms of service and that the files are complete.
We will continue to try to locate the files on the campuses where the files are stored, and we will
work with the CNCS Resolution Coordinator on this matter.

Both missing files are from the 2006-2007 grant year. During this period, the Students in Service
program was transitioning from a centralized program to a decentralized program. While the
transition was a success, significant staff changes at the two campuses where the files are missing
may have contributed to the missing files. Going forward, we have new policies and procedures
that include requiring campus partners, at the end of the grant year, to account for all of their
grant-year files. Also, internal file audits will be conducted during the 1-2 campus visits per grant
year. Having the new policies and procedures in place will lead to all files being accounted for
and available for review at any time.

Finding 4. WWU drew down excess grant funds for PY 2006-2007.

We agree with the auditors' findings and explanation of how the excess draw-down occurred. We
will work with the CNCS Resolution Coordinator on this matter.

Finding 5. WWU did not have documentation to support that criminal background checks
were conducted as part of its member screening process.

From the 2006-2007 grant year to the 2007-2008 grant year, the Students in Service program
significantly improved on its performance of conducting and documenting criminal record checks
on members having significant "recurring access" with a vulnerable population. The two
questioned criminal record checks during the 2007-2008 grant year were actually completed and
documented; however, the criminal record checks were over one year old. We will contact the
member and the site supervisor to have the criminal record checks redone and documented so that
both members are compliant with CNCS policies regarding criminal record checks. Going
forward, we will be more diligent in conducting and documenting timely criminal record checks
on members serving vulnerable populations. We believe we have excellent procedures in place
that ensure criminal record checks are being completed where needed and are compliant with
CNCS policies.
Stuart G. Axenfeld
February 24, 2009
Page 3



Finding 6. Members recorded service hours before contracts were signed.

We agree with the auditors' findings and explanation that the Students in Service program was
unclear in understanding the CNCS policy that a member's contract must be signed on or before
the enrollment date. It was our understanding that the member contract could be signed within 30
days of the official enrollment date.

Going forward, now that we are clear on the policy, we have revised our enrollment checklist and
notified all of our campus partners and enrolling members that enrollment date does not start until
all enrollment paperwork is signed (including the member contract) and satisfactory member
identification is provided. This new policy will eliminate future findings regarding this policy.

Finding 7. WWU did not have documentation that end-of-term member performance
evalnations were performed.

We agree with the auditors' findings and their explanation that we were unclear whether end-of-
term evaluations were actually needed for EAP programs during the grant years tested. Even
though we were not clear on the end-of-term member performance evaluation requirement, we
did require that all members have their site supervisors complete an online site supervisor end-of-
term evaluation. Going forward into the 2008-2009 grant year, we simplified the end-of-term site
supervisor evaluation and created a one-page hard copy that campus partners can immediately
review to determine whether the member performed satisfactory service. Also, the evaluation can
become part of the completed member file. With the change in the site supervisor end-of-term
evaluation and a change in related procedures, we are confident we will eliminate any future
findings concerning end-of-term evaluations.

Finding 8. WWU did not complete some member enrollment, exit, and change-of-status
forms and enter them into WBRS in a timely manner.

Over the last two grant years, we have made significant strides in improving our performance
regarding the 30-day compliance rule for enrollments, exits, and change-of-status. We have
trained our campus partners about the policies and have been extra diligent about administering
the program in a compliant manner. For example, in both the 2007-2008 and 2008-2009 grant
years, our average enrollment date to approval date is now 8 days, significantly under the
required 30 days to be in compliance. Going forward, we will continue to strengthen our policies,
procedures, and controls in regard to the 30-day rule and will be diligent in notifYing CNCS in a
timely manner.

Finding 9. WWU did not retain documentation of member attendance at pre-service
orientation sessions.

It is the policy of the Students in Service program that all prospective members are required to
review an online pre-service orientation and complete a questionnaire that informs them about
AmeriCorps and the Students in Service program. The pre-service orientation helps determine
eligibility, and their level of interest in the Students in Service AmeriCorps program. After
completing the online pre-service orientation, a potential member is required to contact the
Students in Service campus coordinator to schedule an in-person orientation before he/she can
Stuart G. Axenfeld
February 24,2009
Page 4



enroll in the program. This has been the policy of the Students in Service program since the
beginning of the 2006-2007 grant year and continues today.

It was unclear to the Students in Service program that campus partners were "required" to keep
attendance at the scheduled in-person orientations. Some campuses kept their own records and
some did not during the two grants years that were audited. However, now that we are clear on
the policy that all campus partners must retain documentation of member attendance of the in-
person orientations, we have trained our campus partners to keep an attendance schedule on file.
Campus partners are constantly reminded to make sure all attendees of in-person orientations sign
in on the Students in Service In-Person Orientation sign-in sheet. Reminders are posted at the
beginning of the video orientation and the PowerPoint presentation orientation. In addition, sign-
in sheets are checked during campus visits by the director of the Students in Service program.

Summary:

We have already reviewed the findings of the draft report from the audit of the Students in
Service program and have made appropriate changes to our administrative procedures that will
further strengthen our program compliance with CNCS policies. Also, each campus partner will
receive 1-2 internal reviews per year during campus visits to further reinforce, train, and ensure
that CNCS policies and procedures are being followed in the administration of the program.

Sincerely,



~~
Jennifer Dorr
Executive Director
WWU-Washington Campus Compact

cc: Ron Huritz, Office of Inspector General Audit Manager
                  APPENDIX B

CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

         RESPONSE TO THE DRAFT REPORT
                              NATIONAL&:
                              COMMUNITY
                              SERVICE

To:

From:

Cc:           Will




Date:         March 9, 2009

Subj:         Response to OIG Draft of Agreed-Upon Procedures of Education Award
              Program Grants Awarded to Western Washington University-
              Washington Campus Compact


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation's grants awarded to Western Washington University (WWU). We will work
with the grantee to develop corrective actions. We will respond to all findings and
recommendations in our management decision when the audit working papers are
provided and the final audit is issued.
